LAW OFFICES OF MARTIN A. FEIGENBAUM
Mail: P.O. Box 545960, Surfside, FL 33154
Office: 1005 - 96th Street, Suite 205, Bay Harbor Islands, FL 33154
Tel: (305) 323-4595 Fax: (844) 274-0862
Email: innering@aol.com Website: www.martylaw.us

October 13, 2020
Clerk of the Court
United States Supreme Court
U.S. Supreme Court Building
1 First Street, N.E.
Washington, DC 20543
Re: Italo Ebaristo Napa Moreira v. United States / Case No. 20-5087
VIA U.S. MAIL
Dear Clerk of the Court:
Please find attached Supplemental Authority, United States v. Davila-Mendoza,
972 F.3d 1264 (11th Cir. 2020). I have copied opposing counsel via email with this letter
and the attached case. Thank you for your kind consideration of this matter.

Sincerely,
/ s / Martin A. Feigenbaum

MAF:cf
encl. (United States v. Davila-Mendoza)
cc: Solicitor General of the United States (via email SupremeCtBriefs@usdoj.gov)

United States v. Davila-Mendoza, 972 F.3d 1264 (2020)
28 Fla. L. Weekly Fed. C 1737

972 F.3d 1264
United States Court of Appeals, Eleventh Circuit.

UNITED STATES of
America, Plaintiff - Appellee,
v.
Andres Albeto DAVILA-MENDOZA,
Defendant - Appellant.
United States of America,
Plaintiff - Appellee,
v.
Otmar Sing Gonzalez,
Defendant - Appellant.
United States of America,
Plaintiff - Appellee,
v.
Julio Bravo Pineda, Defendant - Appellant.

[2] MDLEA was not valid exercise of Congress's authority
under Necessary and Proper Clause to effectuate subsequently
enacted treaties.
Vacated.

West Headnotes (14)
[1]

Holdings: As matters of first impression, the Court of
Appeals, Branch, Circuit Judge, held that:
[1] MDLEA was not valid exercise of Congress's authority
under Foreign Commerce Clause as applied to defendants,
and

Review De Novo

Court of Appeals reviews de novo the legal
question of whether a statute is constitutional.

[2]

Controlled Substances

Validity

Criminal Law
Offenses on the high seas
or beyond the jurisdiction of any state
The Constitution's Define and Punish Clause,
which grants Congress power to define and
punish Piracies and Felonies committed on the
high Seas, and Offenses against the Law of
Nations, does not authorize the Maritime Drug
Law Enforcement Act's (MDLEA) operation in
foreign territorial waters. U.S. Const. art. 1, § 8,
cl. 10; 46 U.S.C.A. § 70501 et seq.

No. 17-12038, No. 17-12039, No. 17-12742
|
(August 26, 2020)
Synopsis
Background: Defendants moved to dismiss indictment
charging them with possessing and conspiring to possess with
intent to distribute more than 1,000 kilograms of marijuana
while on board a vessel, in violation of the Maritime Drug
Law Enforcement Act (MDLEA). The United States District
Court for the Southern District of Florida, No. 4:16-cr-10032JEM, Jose E. Martinez, J., 2017 WL 105920, adopted a United
States Magistrate Judge's opinion, 2016 WL 7670052, and
denied the motion. Defendants then entered conditional guilty
pleas, and subsequently appealed.

Criminal Law

[3]

International Law
Operation and effect in
international waters or high seas
The use of the term “the law of nations” in the
Constitution's Define and Punish Clause, which
grants Congress power to define and punish
Piracies and Felonies committed on the high
Seas, and Offenses against the Law of Nations,
limits the Clause's application to those offenses
recognized by customary international law. U.S.
Const. art. 1, § 8, cl. 10.

[4]

International Law
Operation and effect in
international waters or high seas
The high seas lie beyond any nation's territorial
sea and are international waters not subject to the
dominion of any single nation.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Davila-Mendoza, 972 F.3d 1264 (2020)
28 Fla. L. Weekly Fed. C 1737

[5]

possessing and conspiring to possess with
intent to distribute marijuana; MDLEA did not
contain either congressional findings regarding
international drug trafficking's effect on foreign
commerce, an in or affecting foreign commerce
element, or jurisdictional hook or nexus to
tie wholly foreign extraterritorial conduct to
United States, and there was no allegation
the contraband, boat, or defendants had any
connection with United States. U.S. Const. art. 1,
§ 8, cl. 3; 46 U.S.C.A. §§ 70503(a)(1), 70503(b),
70506(b).

Constitutional Law
Presumptions and
Construction as to Constitutionality
Court of Appeals generally presumes statutes to
be constitutional.

[6]

Commerce

Commerce among the states

Commerce
commerce

Activities affecting interstate

Three general categories of regulation are
permissible exercises of Congress's commerce
power: first, Congress can regulate the channels
of interstate commerce; second, Congress
has authority to regulate and protect the
instrumentalities of interstate commerce, and
persons or things in interstate commerce; and,
third, Congress has the power to regulate
activities that substantially affect interstate
commerce. U.S. Const. art. 1, § 8, cl. 3.

[7]

Commerce
Congress

1 Cases that cite this headnote
[9]

Under the protective principle of international
law, Congress may assert extraterritorial
jurisdiction over vessels in the high seas that are
engaged in conduct that has a potentially adverse
effect and is generally recognized as a crime
by nations that have reasonably developed legal
systems.

Nonexercise of power by

Commerce
Powers Remaining in States,
and Limitations Thereon
The “dormant foreign commerce power”
operates to void acts of the states upon
foreign commerce because of the Constitution's
overriding concern for national uniformity in
foreign commerce—even in instances when
Congress has not affirmatively acted. U.S. Const.
art. 1, § 8, cl. 3.

[10]

Commerce
Prosecutions

Federal Offenses and

Controlled Substances

Constitutional Grant of Power

United States
Legislative Authority,
Powers, and Functions
The Constitution withholds from Congress a
plenary police power.

Validity

Maritime Drug Law Enforcement Act (MDLEA)
was not valid exercise of Congress's authority
under Foreign Commerce Clause to regulate
activities with substantial effect on commerce of
United States with foreign nations, as applied
to drug-trafficking activities of defendants,
foreign nationals who were seized while aboard
foreign vessel in territorial waters of Jamaica
and subsequently charged under MDLEA with

Commerce
to Congress

Congress's power under the Commerce Clause,
be it the Interstate, Foreign, or Indian Commerce
Clause, is subject to outer limits. U.S. Const. art.
1, § 8, cl. 3.

[11]
[8]

International Law
Operation and effect in
international waters or high seas

[12]

Controlled Substances

Validity

International Law
Self-executing
agreements; implementing legislation
Maritime Drug Law Enforcement Act (MDLEA)
was not a valid exercise of Congress's authority
under the Necessary and Proper Clause to
effectuate the subsequently enacted Convention

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Davila-Mendoza, 972 F.3d 1264 (2020)
28 Fla. L. Weekly Fed. C 1737

Against Illicit Traffic Treaty or Jamaica Bilateral
Agreement between the United States and
Jamaica, as applied to defendants, foreign
nationals who were seized while aboard foreign
vessel in territorial waters of Jamaica and
subsequently charged under MDLEA with
possessing and conspiring to possess with
intent to distribute marijuana; MDLEA was
enacted long before the Convention against
Illicit Traffic Treaty or the Jamaica Bilateral
Agreement, and nothing in MDLEA's legislative
history mentioned a treaty or intimated that
the legislation was in compliance with treaty
obligations. U.S. Const. art. 1, § 8, cl. 18; U.S.
Const. art. 2, § 2, cl. 2.

[13]

International Law
Self-executing
agreements; implementing legislation
In determining whether Congress has the
authority to enact legislation implementing a
treaty, the court looks to the Necessary and
Proper Clause. U.S. Const. art. 1, § 8, cl. 18; U.S.
Const. art. 2, § 2, cl. 2.

[14]

International Law
Self-executing
agreements; implementing legislation
United States
Clause

Necessary and Proper

Collectively, the Necessary and Proper Clause
and the Treaty Making Power empower
Congress to enact any law that is necessary and
proper to effectuate a treaty made pursuant to
Article II. U.S. Const. art. 1, § 8, cl. 18; U.S.
Const. art. 2, § 2, cl. 2.

West Codenotes
Prior Version Recognized as Unconstitutional
18 U.S.C.A. § 922(q)
Unconstitutional as Applied
46 U.S.C.A. §§ 70503(a)(1), 70503(b), 70506(b).
Recognized as Unconstitutional

34 U.S.C.A. § 12361
Attorneys and Law Firms
*1266 Jonathan Colan, Andrea G. Hoffman, Daniel
Matzkin, Emily M. Smachetti, U.S. Attorney Service Southern District of Florida, U.S. Attorney Service - SFL,
Miami, FL, for Plaintiff-Appellee United States of America.
Manuel L. Casabielle, Manuel L. Casabielle, PA, Miami, FL,
for Defendant-Appellant Andres Albeto Davila-Mendoza.
Jose Rafael Rodriguez, Law Offices of J. Rafael Rodriguez,
Miami, FL, for Defendant-Appellant Otmar Sing Gonzalez.
Michael Caruso, Federal Public Defender, Tracy Michele
Dreispul, Stewart Glenn Abrams, Federal Public Defender's
Office, Miami, FL, for Defendant-Appellant Julio Bravo
Pineda.
Appeals from the United States District Court for the
Southern District of Florida, D.C. Docket No. 4:16-cr-10032JEM-2, D.C. Docket No. 4:16-cr-10032-JEM-3, D.C. Docket
No. 4:16-cr-10032-JEM-1
Before JILL PRYOR, BRANCH, and BOGGS,* Circuit
Judges.
Opinion
BRANCH, Circuit Judge:
*1267 In this case, three foreign nationals in a foreign
vessel in the territorial waters of a foreign nation were
arrested by the United States Coast Guard with the consent
of the foreign country and prosecuted in the United States
for drug-trafficking crimes under the Maritime Drug Law
Enforcement Act (MDLEA), 46 U.S.C. §§ 70501–70508. The
defendants unsuccessfully moved to dismiss the indictment,
in relevant part, on the ground that the MDLEA was
unconstitutional as applied to them because Congress lacks
the authority to criminalize acts committed in the territorial
waters of foreign nations. The defendants ultimately pleaded
guilty to the drug-trafficking crimes, but preserved their
right to appeal the denial of their motion to dismiss.
This appeal followed and presents us with a question of
first impression—whether the MDLEA exceeds Congress's
authority pursuant to the Constitution's Foreign Commerce
Clause or, alternatively, the Necessary and Proper Clause, as
applied to the drug-trafficking activities of these defendants
in the territorial waters of a consenting foreign country. After
careful consideration, and with the benefit of oral argument,

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Davila-Mendoza, 972 F.3d 1264 (2020)
28 Fla. L. Weekly Fed. C 1737

we conclude that the MDLEA, as applied to these defendants,
exceeds Congress's constitutional authority, and we vacate
their convictions.

I. BACKGROUND
The undisputed facts are as follows. On June 4, 2016, Andres
Davila-Mendoza, Otmar Gonzalez, Julio Pineda, and a minor
were on board a stalled go-fast vessel in the territorial waters
of Jamaica. With the permission of the Jamaican government,
U.S. Coast Guard officials who had been patrolling the area by
air and sea boarded and searched the distressed vessel. They
discovered that the vessel was loaded with 3,500 kilograms
of baled marijuana. Pineda told the Coast Guard officials
that he was the captain, that he was Nicaraguan, that the
vessel was Costa Rican, and that they were traveling from
Jamaica to Costa Rica. Another crew member stated that the
vessel was overloaded with marijuana and its engines had
stopped working. With the further permission of the Jamaican
government, the Coast Guard seized the boat occupants and
the drugs, and the United States prosecuted the three men.
The three defendants were charged in an indictment with
possessing and conspiring to possess with intent to distribute
more than 1,000 kilograms of marijuana while on board a
vessel, in violation of the MDLEA, 46 U.S.C. §§ 70503(a)
(1), 70503(b); 70506(b). That statute provides in relevant
part that: “While on board a covered vessel, an individual
may not knowingly or intentionally ... manufacture or
distribute, or possess with intent to manufacture or distribute,
a controlled substance.” 46 U.S.C. § 70503(a)(1). This
prohibition “applies even though the act is committed
outside the territorial jurisdiction of the United States.”
Id. § 70503(b). For purposes of the MDLEA, a “covered
vessel” includes “a vessel subject to the jurisdiction of the
United States.” Id. § 70503(e). And the MDLEA specifically
provides that a vessel in the territorial waters of a foreign
nation is subject to the jurisdiction of the United States “if the
nation consents to the enforcement of United States law by
the United States.” Id. § 70502(c)(1)(E).1 Notably, in enacting
the MDLEA, Congress found “that ... trafficking in controlled
substances aboard vessels is a serious international problem,
is universally condemned, and presents a *1268 specific
threat to the security and societal well-being of the United
States.” Id. at § 70501.
The defendants moved to dismiss the indictment on the
grounds that the application of the MDLEA to them exceeded

Congress's power under the Define and Punish Clause, U.S.
Const. art. I, § 8, cl. 10. They also objected to the district
court's exercise of in personam jurisdiction over them as
a violation of their due-process rights. The government
responded that the extraterritorial application of the MDLEA
to the defendants was authorized by the Foreign Commerce
Clause, id. art. I, § 8, cl. 3, and/or the Necessary and Proper
Clause, id. art. I, § 8, cl. 18.
The magistrate judge heard oral argument on the issue
and recommended that the defendants’ motion be denied,
finding that Congress had lawfully exercised its power under
the Foreign Commerce Clause. The magistrate judge also
found that international law provided adequate notice to
the defendants, satisfying due process. The defendants filed
objections, and the district court affirmed and adopted the
report and recommendation of the magistrate judge.
The defendants pleaded guilty under a conditional plea
agreement that preserved their right to appeal the denial of
their motion to dismiss the indictment. The district court
sentenced each defendant to 59 months of imprisonment to
be followed by removal proceedings and 5 years of nonreporting supervised release. The defendants now appeal on
that preserved basis, and we consider their appeals together.

II. STANDARD OF REVIEW
[1] “We review de novo the legal question of whether a
statute is constitutional.” United States v. Campbell, 743 F.3d
802, 805 (11th Cir. 2014) (quoting United States v. Tinoco,
304 F.3d 1088, 1099 (11th Cir. 2002)).

III. DISCUSSION
The defendant-appellants in this consolidated appeal argue
that the MDLEA, as applied to them, exceeds Congress's
authority under Article I of the Constitution. The government
contends that the MDLEA, as applied to the defendants,
was a valid exercise of Congress's power under the Foreign
Commerce Clause, or alternatively, under the Necessary
and Proper Clause. We address whether Congress has such
authority under each Clause in turn.

A. The Foreign Commerce Clause

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Davila-Mendoza, 972 F.3d 1264 (2020)
28 Fla. L. Weekly Fed. C 1737

[2]
[3]
[4] As an initial matter, the district court
correctly recognized that, under our Circuit precedent, the
Constitution's Define and Punish Clause does not authorize
the MDLEA's operation in foreign territorial waters. See
United States v. Bellaizac-Hurtado, 700 F.3d 1245, 1258
(11th Cir. 2012). That tripartite clause grants Congress power
to “define and punish Piracies and Felonies committed on
the high Seas, and Offenses against the Law of Nations.”
U.S. Const. art. I, § 8, cl. 10. Because the crimes here were
not committed on the high seas,2 the Piracies and Felonies
Clauses do not apply. And we explained in Bellaizac-Hurtado
that the use of the term *1269 “the law of nations” in
the Offenses Clause limits its application to those offenses
recognized by customary international law. 700 F.3d at 1249–
53. Because drug trafficking is not such an offense, id. at
1253–57, we held that the MDLEA was unconstitutional
under the Offenses Clause as applied to the Bellaizac-Hurtado
defendants, who had been charged with drug trafficking on
board a vessel in the territorial waters of Panama.
[5] But we generally presume statutes to be constitutional.
United States v. Morrison, 529 U.S. 598, 607, 120 S.Ct. 1740,
146 L.Ed.2d 658 (2000). And our Court has suggested in
passing, albeit dicta, that there may exist a different Article
I authorization for the MDLEA's operation as applied to
conduct that occurs in the territorial waters of a foreign nation
—the Foreign Commerce Clause. United States v. Baston,
818 F.3d 651, 667 (11th Cir. 2016) (“If the government had
invoked the Foreign Commerce Clause in Bellaizac-Hurtado,
we might have reached a different result.”). The government
here has taken us up on that suggestion and argues that the
MDLEA as applied to the conduct of these defendants was a
valid exercise of Congress's authority pursuant to the Foreign
Commerce Clause. Accordingly, the question we must answer
is whether the Foreign Commerce Clause authorizes the
MDLEA's operation as applied to these defendants.
1. Legal Framework
[6] The Constitution provides that “Congress shall have
Power ... [t]o regulate Commerce with foreign Nations,
and among the several States, and with the Indian Tribes.”
U.S. Const. art. I, § 8, cl. 3. This tripartite clause is
commonly known as the Foreign Commerce Clause, the
Interstate Commerce Clause, and the Indian Commerce
Clause, respectively. “The Commerce Clause emerged as
the Framers’ response to the central problem giving rise to
the Constitution itself: the absence of any federal commerce
power under the Articles of Confederation.” Gonzales v.

Raich, 545 U.S. 1, 16, 125 S.Ct. 2195, 162 L.Ed.2d 1 (2005).
The Supreme Court first defined the nature of Congress's
commerce power in its 1824 decision in Gibbons v. Ogden,
explaining that:
[c]ommerce, undoubtedly, is traffic, but it is something
more: it is intercourse. It describes the commercial
intercourse between nations, and parts of nations, in all
its branches, and is regulated by prescribing rules for
carrying on that intercourse. ... It is the power to regulate;
that is, to prescribe the rule by which commerce is to be
governed. This power, like all others vested in Congress,
is complete in itself, may be exercised to its utmost extent,
and acknowledges no limitations, other than are prescribed
in the constitution.
22 U.S. 1, 189–90, 196, 9 Wheat. 1, 6 L.Ed. 23 (1824).
Over time, the understanding and meaning of “regulate
Commerce,” at least in the context of the Interstate
Commerce Clause, has expanded and three general categories
of regulation have emerged as permissible exercises of
Congress's commerce power. See Raich, 545 U.S. at 15–
17, 125 S.Ct. 2195 (discussing historical evolution of
commerce power). “First, Congress can regulate the channels
of interstate commerce. Second, Congress has authority
to regulate and protect the instrumentalities of interstate
commerce, and persons or things in interstate commerce.
Third, Congress has the power to regulate activities that
substantially affect interstate commerce.” Id. at 16–17, 125
S.Ct. 2195 (internal citations omitted).
[7] With regard to the Foreign Commerce Clause, the
Supreme Court has described the Foreign Commerce Clause
as granting Congress a broad, “exclusive[,] *1270 and
plenary” power to regulate commerce with foreign nations.
See Bd. of Trs. of Univ. of Ill. v. United States, 289 U.S. 48,
56, 53 S.Ct. 509, 77 L.Ed. 1025 (1933). Yet, jurisprudence
addressing Congress's positive Foreign Commerce Clause
power is sparse. Most of the Supreme Court's Foreign
Commerce Clause precedents concern the foreign commerce
power only in its negative, or dormant, sense. Specifically,
the dormant foreign commerce power operates to void
acts of the states upon foreign commerce because of the
Constitution's overriding concern for national uniformity in
foreign commerce—even in instances when Congress has not
affirmatively acted. See, e.g., Japan Line, Ltd. v. Cty. of L.A.,
441 U.S. 434, 448, 99 S.Ct. 1813, 60 L.Ed.2d 336 (1979)
(striking down a state tax on imports); see also Bd. of Trs.
of Univ. of Ill., 289 U.S. at 57–58, 53 S.Ct. 509 (affirming a
U.S. tariff over a state's protest). But the Supreme Court has

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

United States v. Davila-Mendoza, 972 F.3d 1264 (2020)
28 Fla. L. Weekly Fed. C 1737

never clearly articulated the bounds of the positive foreign
commerce power.
And we have only one case in which we have addressed
Congress's positive foreign commerce power, Baston.
Specifically, the defendant in Baston was “an international
sex trafficker” who trafficked women “around the world, from
Florida to Australia to the United Arab Emirates.” 818 F.3d
at 656. Although Baston was a non-citizen, he was arrested
at his mother's home in the United States and charged and
convicted of violating 18 U.S.C. §§ 1596(a)(2) and 1591,
which prohibits sex trafficking by force, fraud, or coercion.3
Id. at 657–59. Notably, § 1596(a)(2) grants the United States
“extra-territorial jurisdiction over” sex trafficking by force,
fraud, or coercion that occurs overseas by a person who is
“present in the United States.”4
As relevant background, Congress enacted §§ 1591 and
1596, respectively, as part of the Trafficking Victims
Protection Act of 2000 and the Trafficking Victims Protection
Reauthorization Act of 2008 (together, the “TVPA”). Id. at
666, 668. “The TVPA is part of a comprehensive regulatory
scheme,” id. at 668 (quotation omitted), designed to “combat
trafficking in persons ... to ensure just and effective
punishment of traffickers, and to protect their victims,” 22
U.S.C. § 7101. In enacting the TVPA, Congress expressly
found that “[t]rafficking in persons is a modern form of
slavery,” and “is the fastest growing *1271 source of profits
for organized criminal enterprises worldwide. Profits from the
trafficking industry contribute to the expansion of organized
crime in the United States and worldwide.” Id. § 7101(b)
(1), (8). Further, Congress found that “[t]rafficking in persons
substantially affects interstate and foreign commerce” as such
trafficking “has an impact on the nationwide employment
network and labor market.” Id. § 7101(b)(12).
On appeal, Baston argued that he could not be ordered to
pay restitution for his extraterritorial conduct, and that any
holding to the contrary would exceed Congress's authority
under Article I of the Constitution. 818 F.3d at 666.
Thus, this Court examined whether § 1596(a)(2), which
confers extraterritorial jurisdiction over sex trafficking, was
a constitutional exercise of Congress's authority under the
Foreign Commerce Clause. Id. at 666–69. In addressing
this question, we first noted that “nothing in the Foreign
Commerce Clause” or in Article I itself “limits Congress's
power to enact extraterritorial laws.” Id. at 667. We then
noted that the dormant Foreign Commerce Clause cases
provided little insight into the bounds of Congress's positive

foreign commerce power other than the suggestion in dicta
that the foreign commerce power “may be broader” than
the interstate commerce power (the bounds of which have
been more thoroughly explored). Id. at 668 (quoting Atl.
Cleaners & Dyers, Inc. v. United States, 286 U.S. 427, 434, 52
S.Ct. 607, 76 L.Ed. 1204 (1932)). Nevertheless, we declined
to “demarcate the outer bounds of the Foreign Commerce
Clause” and instead “assum[ed], for the sake of argument,
that the Foreign Commerce Clause has the same scope as the
Interstate Commerce Clause.” Id.
In other words, Congress's power under the Foreign
Commerce Clause includes at least the power to regulate
the “channels” of commerce between the United States
and other countries, the “instrumentalities” of commerce
between the United States and other countries, and
activities that have a “substantial effect” on commerce
between the United States and other countries.
Id.
We then concluded that § 1596(a)(2) was a valid exercise
of Congress's foreign commerce power “at least as a
regulation of activities that have a ‘substantial effect’ on
foreign commerce.” 818 F.3d at 668. Citing the congressional
findings, we explained that “Congress had a ‘rational basis’
to conclude that [sex trafficking by force, fraud, or coercion]
—even when it occurs exclusively overseas—is ‘part of
an economic “class of activities” that have a substantial
effect on ... commerce’ between the United States and other
countries.” Id. at 668–69.
With Baston as our guide in the case at hand, we too, assume,
without deciding, that the Foreign Commerce Clause has the
same scope as the Interstate Commerce Clause. Under this
assumption, the parties agree that, given the unique facts of
this case, if the application of the MDLEA to the defendants’
conduct is to pass muster, it will be under the third category of
regulated commerce: those activities that have a “substantial
effect” on commerce between the United States and foreign
nations.
The substantial-effects inquiry is most commonly conducted
in the Interstate Commerce Clause context. For instance, in
United States v. Lopez, 514 U.S. 549, 115 S.Ct. 1624, 131
L.Ed.2d 626 (1995), the Supreme Court was tasked with
determining whether the Gun-Free School Zones Act of 1990,
which made it a federal offense “for any individual knowingly
to possess a firearm at a place that the individual knows,
or has reasonable cause to believe, is a school zone[,]” was
a valid exercise *1272 of Congress's authority under the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

United States v. Davila-Mendoza, 972 F.3d 1264 (2020)
28 Fla. L. Weekly Fed. C 1737

Interstate Commerce Clause. Id. at 551, 115 S.Ct. 1624 (citing
the Gun-Free School Zones Act of 1990, Pub. L. 101-647,
§ 1702 (1990), codified at 18 U.S.C. § 922(q) (1990)).
Emphasizing that Congress's constitutionally enumerated
powers have “judicially enforceable outer limits,” the Court
set out to define more clearly the limit on Congress's
authority to regulate interstate commerce. Id. at 566, 115 S.Ct.
1624. The Court acknowledged that, if the statute “[was]
to be sustained, it must be under the third category as a
regulation of an activity that substantially affects interstate
commerce.” Id. at 559, 115 S.Ct. 1624. The Court then
explained “[w]here economic activity substantially affects
interstate commerce, legislation regulating that activity will
be sustained.” Id. at 560, 115 S.Ct. 1624. But the Gun
Free School Zones Act was “a criminal statute that by its
terms ha[d] nothing to do with ‘commerce’ or any sort
of economic enterprise[.]” Id. at 561, 115 S.Ct. 1624. The
Court also noted that the statute “contain[ed] no jurisdictional
element which would ensure, through case-by-case inquiry,
that the firearm possession in question affect[ed] interstate
commerce.” Id. The Court further explained that although
Congress is not required to make findings as to the burdens
an activity has on interstate commerce and “[w]hether
particular operations affect interstate commerce sufficiently
to come under the constitutional power of Congress to
regulate them is ultimately a judicial rather than a legislative
question,” it nevertheless would consider any legislative and
congressional findings regarding the effect of the activity on
interstate commerce as part of its independent inquiry into the
constitutionality of the statute under the Commerce Clause.
Id. at 557 n.2, 562–63, 115 S.Ct. 1624 (quoting Heart of
Atlanta Motel, Inc. v. United States, 379 U.S. 241, 273, 85
S.Ct. 348, 13 L.Ed.2d 258 (1964) (Black, J., concurring)).
However, there were no such findings present in Lopez as
“[n]either the statute nor its legislative history contain[ed]
express congressional findings regarding the effects upon
interstate commerce of gun possession in a school zone.” Id.
at 562, 115 S.Ct. 1624 (first alteration in original) (quotations
omitted). Finally, although the government made attenuated
arguments about the substantial effects of gun possession in a
local school zone on interstate commerce (i.e., that possession
of a firearm in a school zone might lead to violent crime and
violent crime affects the economy by driving up insurance
costs and by deterring individuals from traveling to “unsafe
areas”) the Court rejected those arguments, concluding that
such arguments would, logically extended, allow Congress
to regulate almost every private activity. Id. at 563–64, 115
S.Ct. 1624. Consequently, because the text and structure of the
Constitution do not allow Congress a “general police power

of the sort retained by the States,” id. at 567, 115 S.Ct. 1624,
the Court struck down the Act as unconstitutional.
Five years later, in United States v. Morrison, 529 U.S.
598, 120 S.Ct. 1740, 146 L.Ed.2d 658 (2000), the Supreme
Court was again confronted with the question of whether
a particular statute regulating a non-economic activity was
a valid exercise of Congress's power under the Interstate
Commerce Clause. The statute in question in Morrison
created a civil right of action against perpetrators of gendermotivated crimes of violence. Id. at 601, 120 S.Ct. 1740
(citing the Violence Against Women Act of 1994, Pub. L.
103-322, § 40302 (1994), originally codified at 42 U.S.C.
§ 13981 (1994), now codified at 34 U.S.C. § 12361). The
government sought to sustain the statute “as a regulation of
activity that substantially affects interstate commerce.” Id.
at 609, 120 S.Ct. 1740. The Court noted that, similar to the
*1273 statute at issue in Lopez, the statute in question did
not seek to regulate an economic activity and “contain[ed]
no jurisdictional element establishing that the federal cause
of action is in pursuance of Congress’[s] power to regulate
interstate commerce.” Id. at 613, 120 S.Ct. 1740. But, unlike
in Lopez, in Morrison Congress made express findings that
gender-motivated violence affects interstate commerce
“by deterring potential victims from traveling interstate,
from engaging in employment in interstate business, and
from transacting with business, and in places involved
in interstate commerce; ... by diminishing national
productivity, increasing medical and other costs, and
decreasing the supply of and the demand for interstate
products.”
Id. at 614–15, 120 S.Ct. 1740 (quoting H.R. Conf. Rep. No.
103–711, at 385, U.S. Code Cong. & Admin. News 1994, pp.
1803, 1853). However, the Court reiterated that “the existence
of congressional findings is not sufficient, by itself, to sustain
the constitutionality of Commerce Clause legislation,” and
Congress's findings as to the Morrison statute suffered from
the same flaw as the arguments proffered by the government
in Lopez. Id. at 614–15, 120 S.Ct. 1740. Specifically, the
reasoning of Congress followed “the but-for causal chain
from the initial occurrence of violent crime ... to every
attenuated effect upon interstate commerce[,]” which “[i]f
accepted ... would allow Congress to regulate any crime
as long as the nationwide, aggregated impact of that crime
has substantial effects on employment, production, transit,
or consumption.” Id. at 615, 120 S.Ct. 1740. And, again the
Court cautioned that such reasoning would allow the vast
regulation of crime, family law, and other areas traditionally
reserved to the states. Id. at 615–16, 120 S.Ct. 1740.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

United States v. Davila-Mendoza, 972 F.3d 1264 (2020)
28 Fla. L. Weekly Fed. C 1737

Accordingly, the Court concluded that Congress may not
“regulate noneconomic, violent criminal conduct based solely
on that conduct's aggregate effect on interstate commerce.”
Id. at 617, 120 S.Ct. 1740.
The Supreme Court applied the substantial-effects test yet
again five years later in Raich to determine whether the
federal Controlled Substances Act (“CSA”) was a valid
exercise of the interstate commerce clause power as applied
to prohibit the purely intrastate growth and use of marijuana
for medical purposes in California. 545 U.S. at 15, 125 S.Ct.
2195. The Court explained that although the respondents in
Raich were cultivating the marijuana for local consumption, it
was “a fungible commodity for which there is an established,
albeit illegal, interstate market.” Id. at 18, 125 S.Ct. 2195. And
“a primary purpose of the CSA is to control the supply and
demand of controlled substances in both lawful and unlawful
drug markets.” Id. at 19, 125 S.Ct. 2195. Thus, “[g]iven the
enforcement difficulties that attend distinguishing between
marijuana cultivated locally and marijuana grown elsewhere,
and concerns about diversion [of the locally grown marijuana]
into illicit channels,” the Court concluded that Congress
had a rational basis for believing that purely intrastate
marijuana production would, in the aggregate, have a
substantial effect on interstate commerce. Id. at 22, 125
S.Ct. 2195 (internal citation omitted). Accordingly, the Court
upheld the constitutionality of the CSA, as applied to the
Raich respondents, noting that “case law firmly establishes
Congress’[s] power to regulate purely local activities that are
part of an economic ‘class of activities’ that have a substantial
effect on interstate commerce,” and “the de minimis character
of individual instances” of regulated conduct did not matter.
Id. at 17, 22, 125 S.Ct. 2195 (quoting Lopez, 514 U.S. at 558,
115 S.Ct. 1624).
Notably, in reaching this conclusion, the Court rejected
the respondents’ argument that the CSA could not “be
constitutionally *1274 applied to their activities because
Congress did not make a specific finding that the purely
local production of marijuana for medicinal purposes “would
substantially affect the larger interstate marijuana market.”
Id. at 21, 125 S.Ct. 2195. The Court reiterated that “while
we will consider congressional findings in our analysis when
they are available, the absence of particularized findings does
not call into question Congress’[s] authority to legislate.” Id.
Finally, the Court emphasized that a reviewing court's task
under the substantial-effects inquiry is “a modest one. We
need not determine whether respondents’ activities, taken in
the aggregate, substantially affect interstate commerce in fact,

but only whether a ‘rational basis’ exists for so concluding.”
Id. at 22, 125 S.Ct. 2195.
2. Application of this framework to the facts of this case
[8] With this framework in mind, we turn to the question of
whether the MDLEA as applied to the defendants’ conduct
in this case is a valid exercise of Congress's authority under
the Foreign Commerce Clause to regulate those activities that
have a “substantial effect” on the commerce of the United
States “with foreign nations.” U.S. Const. art. I, § 8, cl.
3. The government maintains the Baston/Raich framework
requires us to conclude that the application of the MDLEA
to the wholly foreign conduct in this case was a valid
exercise of Congress's authority. Baston, however, is factually
distinguishable.
First, Baston involved statutory provisions enacted as part
of the TVPA, “a comprehensive regulatory scheme” that
included specific congressional findings “that trafficking of
persons has an aggregate economic impact on interstate and
foreign commerce.” Baston, 818 F.3d at 668–69 (quoting
United States v. Evans, 476 F.3d 1176, 1179 (11th Cir. 2007)).
Importantly, in applying the substantial-effects test to the
extraterritorial conduct at issue in Baston, we relied on those
congressional findings to determine that “Congress had a
‘rational basis’ to conclude that such conduct—even when it
occurs exclusively overseas—is ‘part of an economic “class
of activities” that have a substantial effect on ... commerce’
between the United States and other countries.” Id. at 668
(citing Raich, 545 U.S. at 17, 125 S.Ct. 2195). Indeed,
Congress's findings were the only support we cited for this
conclusion. See id.
Although the government argues that, similar to the TVPA,
the MDLEA is a comprehensive regulatory scheme designed
to combat a global problem (in this case, drug trafficking),
the MDLEA does not contain any congressional findings
regarding international drug trafficking's effect on United
States commerce “with foreign nations.” See 46 U.S.C. §
70501. The law mentions only that “trafficking in controlled
substances aboard vessels is a serious international problem”
and that it “presents a specific threat to the security and
societal well-being of the United States[.]” 46 U.S.C. §
70501. It does not include any findings on the existence
or extent of an economic impact, aggregate or otherwise,
of the international drug trade on United States commerce
with foreign nations. See id. Admittedly, such congressional
findings are not required nor sufficient to establish substantial
effect. Morrison, 529 U.S. at 614, 120 S.Ct. 1740.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

United States v. Davila-Mendoza, 972 F.3d 1264 (2020)
28 Fla. L. Weekly Fed. C 1737

Nevertheless, “to the extent that congressional findings would
enable us to evaluate the legislative judgment that the [wholly
foreign drug trafficking] in question substantially affected
[the United States's commerce with foreign nations] ... they
are lacking here.” See Lopez, 514 U.S. at 563, 115 S.Ct. 1624.
*1275 Second, the statutes at issue in Baston, 18 U.S.C.
§§ 1591(a) and 1596(a)(2) required both an effect on foreign
commerce as an element of the offense and a physical
connection to the United States. Specifically, § 1591(a) makes
it a crime to, “in or affecting interstate or foreign commerce,”
recruit a person knowing that force, fraud, or coercion “will
be used to cause the person to engage in a commercial sex
act.” 18 U.S.C. § 1591(a) (emphasis added). The MDLEA
does not contain a similar “in or affecting interstate or foreign
commerce” element. See 46 U.S.C. §§ 70502(c), 70503.
[9] Additionally, and more importantly, although not a focal
point of the analysis in Baston (but certainly a critical
factual distinction when compared to the case at hand),
under § 1596(a) the United States has jurisdiction over the
extraterritorial sex-trafficking conduct only if the defendant
is “a national of the United States,” “an alien lawfully
admitted for permanent residence,” or otherwise “present in
the United States, irrespective of the nationality of the alleged
offender.” See 18 U.S.C. § 1596(a). Thus, § 1596 provides a
jurisdictional hook that precludes purely foreign activity with
no nexus to the United States from being criminalized.5 In
contrast, the MDLEA does not contain a similar jurisdictional
hook or nexus to tie wholly foreign extraterritorial conduct to
the United States.6 See 46 U.S.C. §§ 70502(c), 70503. In any
event, no such jurisdictional hooks are present in this case.
Furthermore, the facts in Baston demonstrated that the
defendant's activities were so thoroughly intertwined with
the United States's commerce with foreign nations that the
issue was not a close call. Baston “resided in Florida, where
he rented property, started businesses, and opened bank
accounts,” and “portrayed himself as a United States citizen.”
Baston, 818 F.3d at 669. He also “used a Florida driver's
license and a United States passport to facilitate his criminal
activities.” Id. at 670. He trafficked a victim “in both the
United States and Australia, and when he trafficked her in
Australia, he wired the proceeds back to Miami.” Id. The
court described Baston's contacts with the United States as
“legion,” concluding that he “used this country as a home
base and took advantage of its laws; *1276 he cannot now
complain about being subjected to those laws.” Id. at 669–
70. While these facts were discussed in relation to Baston's

due-process claim, they nevertheless make clear that Baston
could have made no credible argument that his conduct had no
effect on United States commerce with foreign nations. In the
case at hand, however, the government did not allege that the
contraband, the boat, or the defendants had any connection,
even a peripheral one, with the United States, when they
were seized in the territorial waters of Jamaica. Accordingly,
Baston is factually distinguishable and is not dispositive
of the question of whether the MDLEA as applied to the
defendants in this case was a valid exercise of Congress's
foreign-commerce power.
Turning to Raich, the government argues that Raich
reaffirmed that wholly intrastate economic activities could
have a substantial effect on interstate commerce and could be
regulated by Congress via the Interstate Commerce Clause.
Therefore, according to the government, if we logically
extend Raich to this case, the MDLEA's application to the
defendants’ extraterritorial conduct is a permissible exercise
of Congress's authority under the Foreign Commerce Clause
because Congress could rationally conclude that foreign drug
trafficking could have a substantial effect on the international
drug trade, which has an aggregate economic impact on
foreign commerce. However, while Raich may serve as
a backdrop for our analysis, Raich involved Congress's
power to regulate commerce “among the states,” which
undoubtedly presents a different question than Congress's
power to regulate commerce “with foreign nations,” and,
therefore, does not necessarily control our analysis. In other
words, the Interstate Commerce Clause jurisprudence must be
carefully adapted to fit the “commerce with foreign nations”
context.
[10] To be clear, Supreme Court jurisprudence confirms that
Congress's power under the Commerce Clause, be it the
Interstate, Foreign, or Indian Commerce Clause, “is subject
to outer limits.” See Lopez, 514 U.S. at 556–57, 115 S.Ct.
1624; see also Nat'l Fed'n of Indep. Bus. v. Sebelius, 567 U.S.
519, 557, 132 S.Ct. 2566, 183 L.Ed.2d 450 (2012) (Congress
does not have “a general license to regulate an individual from
cradle to grave,” even if “[e]veryone will likely participate
in the markets for food, clothing, transportation, shelter, or
energy”); Baston, 818 F.3d at 668 (noting that the Foreign
Commerce Clause has “outer bounds” but declining to
demarcate those bounds). Thus, the question in this case,
which again presents an as applied challenge, is whether there
is a rational basis for concluding that the drug-trafficking
conduct here in the territorial waters of a foreign nation,
by foreign nationals using a foreign-registered vessel, of

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

United States v. Davila-Mendoza, 972 F.3d 1264 (2020)
28 Fla. L. Weekly Fed. C 1737

drugs not bound for the United States, substantially affects
United States commerce with foreign nations. The record
contains no evidence to support this conclusion. And the
government's attenuated argument that wholly foreign drug
trafficking impacts the international drug trade, which could
impact United States commerce with foreign nations, requires
a chain of inferences like that rejected by the Lopez court.
Lopez, 514 U.S. at 564, 115 S.Ct. 1624. As the Lopez court
noted, “if we were to accept the [g]overnment's arguments,
we are hard pressed to posit any activity by an individual that
Congress is without power to regulate.” Id.
[11] Indeed, under the government's reasoning, nothing
would prevent Congress from globally policing wholly
foreign drug trafficking commerce, potentially intruding
on the sovereignty of other Nations, and bringing foreign
nationals into the United States for prosecution based *1277
solely on extra-territorial conduct when the United States
was neither a party to, nor a target of, the commerce. See
United States v. Al-Maliki, 787 F.3d 784, 792–93 (6th Cir.
2015) (cautioning that “an unbounded reading of the Foreign
Commerce Clause allows the federal government to intrude
on the sovereignty of other nations—just as a broad reading
of the Interstate Commerce Clause allows it to intrude on
the sovereignty of the States”). Moreover, the Constitution
withholds “from Congress a plenary police power that would
authorize” such regulation. Lopez, 514 U.S. at 566, 115 S.Ct.
1624. Rather, the Constitution grants Congress the authority
to regulate commerce “with foreign nations” not “among and
within foreign nations.” cf. Al-Maliki, 787 F.3d at 792 (noting
that “the textualist reading” of the Foreign Commerce Clause
“require[s]” “commerce ‘with’ a foreign Nation”).
Accordingly, for the reasons set forth above, as applied
to these defendants, the MDLEA is unconstitutional and
exceeded Congress's authority under the Foreign Commerce
Clause.

B. NECESSARY AND PROPER CLAUSE
[12] The government also argues that the MDLEA's
application to this case is a valid exercise of Congress's
authority pursuant to Article I's Necessary and Proper Clause
to enforce the 1989 Convention Against Illicit Traffic Treaty
and the 1997 Jamaica Bilateral Agreement between the
United States and Jamaica. We are unpersuaded.

[13] [14] Article II of the Constitution gives the President
the “Power, by and with the Advice and Consent of the
Senate, to make Treaties ....” U.S. Const. art. II, § 2, cl.
2. “In determining whether Congress has the authority to
enact legislation implementing such a treaty, we look to the
Necessary and Proper Clause.” United States v. Belfast, 611
F.3d 783, 804 (11th Cir. 2010). That clause provides that
“Congress shall have Power ... [t]o make all Laws which
shall be necessary and proper for carrying into Execution
the foregoing Powers, and all other Powers vested by this
Constitution in the Government of the United States, or in any
Department or Officer thereof.” U.S. Const. art. I, § 8, cl. 18.
“Collectively, these clauses empower Congress to enact any
law that is necessary and proper to effectuate a treaty made
pursuant to Article II.” Belfast, 611 F.3d at 804 (emphasis
added).
But the MDLEA was enacted long before the Convention
against Illicit Traffic Treaty or the Jamaica Bilateral
Agreement; therefore, it was not enacted pursuant to the
Necessary and Proper Clause to effectuate those international
agreements. See id. And the government has not provided
us with any case in which legislation has been upheld as
necessary and proper for carrying into execution a treaty
which did not yet exist at the time the legislation was enacted.
Cf. United States v. Lara, 541 U.S. 193, 201, 124 S.Ct. 1628,
158 L.Ed.2d 420 (2004) (“The treaty power does not literally
authorize Congress to act legislatively, for it is an Article
II power authorizing the President, not Congress, ‘to make
Treaties.’ ” (quoting U.S. Const. art. II, § 2, cl. 2)). Moreover,
“nothing in the legislative history of MDLEA mentions a
treaty or intimates that the legislation is in compliance with
treaty obligations.” United States v. Cardales-Luna, 632 F.3d
731, 749 (1st Cir. 2011) (Torruella, J., dissenting). Similarly,
“[n]o court decision dealing with [the] MDLEA refers to
any treaty obligation as the source of Congress's Article I
authority.” Id. Accordingly, we do not find that, as applied
to these defendants, the MDLEA was a valid exercise of
Congress's authority under the Necessary and Proper Clause
to effectuate the subsequently *1278 enacted Illicit Traffic
Treaty or the Jamaica Bilateral Agreement.

IV. CONCLUSION
Because as applied to these defendants, the MDLEA
exceeded Congress's authority under Article I, we must
VACATE their convictions.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

10

United States v. Davila-Mendoza, 972 F.3d 1264 (2020)
28 Fla. L. Weekly Fed. C 1737

All Citations
972 F.3d 1264, 28 Fla. L. Weekly Fed. C 1737

Footnotes

*
1
2

3

4

5

6

Honorable Danny J. Boggs, United States Circuit Judge for the Sixth Circuit, sitting by designation.
The defendants’ boat was a “vessel subject to the jurisdiction of the United States,” by statutory definition, because
Jamaica consented to the United States Coast Guard's enforcement of American laws in its territorial waters. 46 U.S.C.
§ 70502(c)(1)(E).
The high seas lie beyond any nation's territorial sea and are “international waters not subject to the dominion of any
single nation.” United States v. Louisiana, 394 U.S. 11, 23, 89 S.Ct. 773, 22 L.Ed.2d 44 (1969). And we have frequently
examined and upheld the constitutionality of the application of the MDLEA to conduct that occurred on the high seas.
See, e.g., United States v. Estupinan, 453 F.3d 1336, 1338–39 (11th Cir. 2006); United States v. Rendon, 354 F.3d
1320, 1322–23 (11th Cir. 2003); Tinoco, 304 F.3d at 1092–95. But this case presents an altogether different question
because the conduct at issue here involves foreign nationals aboard a foreign vessel in the territorial waters of a foreign
nation, not the high seas.
18 U.S.C. § 1591 provides:
(a) Whoever knowingly-(1) in or affecting interstate or foreign commerce, or within the special maritime and territorial jurisdiction of the United
States, recruits, entices, harbors, transports, provides, obtains, advertises, maintains, patronizes, or solicits by any
means a person; or
(2) benefits, financially or by receiving anything of value, from participation in a venture which has engaged in an
act described in violation of paragraph (1),
knowing, or, except where the act constituting the violation of paragraph (1) is advertising, in reckless disregard of the
fact, that means of force, threats of force, fraud, coercion described in subsection (e)(2), or any combination of such
means will be used to cause the person to engage in a commercial sex act, or that the person has not attained the age
of 18 years and will be caused to engage in a commercial sex act, shall be punished as provided in subsection (b).
18 U.S.C. § 1596(a) provides:
In addition to any domestic or extra-territorial jurisdiction otherwise provided by law, the courts of the United States
have extra-territorial jurisdiction over any offense (or any attempt or conspiracy to commit an offense) under section ...
1591 if—
(1) an alleged offender is a national of the United States or an alien lawfully admitted for permanent residence (as
those terms are defined in section 101 of the Immigration and Nationality Act (8 U.S.C. 1101)); or
(2) an alleged offender is present in the United States, irrespective of the nationality of the alleged offender.
This distinction means that had the situation in Baston in fact been analogous to the facts of this case—if, for example,
the defendant had been an Australian who had trafficked women between Australia and New Zealand, and was never
present in the United States—the statutes at issue in Baston, 18 U.S.C. §§ 1591 and 1596, would not have permitted
the defendant's prosecution in the United States.
Our discussion of nexus in the context of the Foreign Commerce Clause does not in any way undercut our holdings that
no nexus is necessary where the MDLEA is an exercise of Congress's express authority to define and punish conduct
occurring on the high seas pursuant to the Felonies Clause. See United States v. Campbell, 743 F.3d 802, 810 (11th
Cir. 2014) (“ ‘[W]e have always upheld extraterritorial convictions [for conduct occurring on the high seas] under our
drug trafficking laws as an exercise of power under the Felonies Clause.’ ... We also have recognized that the conduct
proscribed by the [MDLEA] need not have a nexus to the United States because universal and protective principles
support its extraterritorial reach” (first alteration in original) (quoting Bellaizac-Hurtado, 700 F.3d at 1257)). Specifically,
under the protective principle of international law, Congress “may assert extraterritorial jurisdiction over vessels in the
high seas that are engaged in conduct that has a potentially adverse effect and is generally recognized as a crime by
nations that have reasonably developed legal systems.” Tinoco, 304 F.3d at 1108 (quotations omitted). Thus, we have
frequently rejected a nexus requirement and upheld the constitutionality of the application of the MDLEA to conduct that
occurred on the high seas as a valid exercise of Congress's authority under the Felonies Clause. See, e.g., Estupinan,
453 F.3d at 1338–39; Rendon, 354 F.3d at 1325.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

11

United States v. Davila-Mendoza, 972 F.3d 1264 (2020)
28 Fla. L. Weekly Fed. C 1737

End of Document

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

12

